HHS/OIG-Audit--"Review of HMO Payments - Beneficiaries on Dialysis, (A-14-98-00211)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of HMO Payments - Beneficiaries on Dialysis," (A-14-98-00211)
July 18, 2000
Complete Text of Report is available in PDF format
(1.61 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that improvements are still needed in the Health
Care Financing Administration's (HCFA) system for classifying beneficiaries
enrolled in certain high cost categories such as end stage renal disease (ESRD).
A limited review of 76 beneficiaries classified as ESRD disclosed that 14 beneficiaries
(18 percent) were misclassified during 1997 resulting in $112,486 in gross payment
errors. We found that 9 beneficiaries' ESRD status was terminated prematurely
resulting in underpayments of $57,497, and 5 beneficiaries had no signs of renal
failure resulting in overpayments of $54,989 to the MCO. We recommended that
HCFA made procedural and systems changes to prevent further erroneous classifications
of ESRD status and instruct all ESRD centers to verify the status of beneficiaries
and to submit census data on a timely basis. The HCFA concurred with our findings
and recommendations.